TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2008 Statutory Review of
                       Compliance With Lien Due Process
                                   Procedures



                                          March 27, 2008

                              Reference Number: 2008-30-082




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 27, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2008 Statutory Review of Compliance
                                 With Lien Due Process Procedures (Audit # 200830001)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) lien due
 process procedures. The overall objective of this review was to determine whether IRS Notice of
 Federal Tax Lien filings and notices of taxpayers’ appeal rights complied with legal guidelines
 set forth in Internal Revenue Code Section (I.R.C. §) 6320.1 The Treasury Inspector General for
 Tax Administration is required by law to determine annually whether lien notices sent by the IRS
 comply with the legal guidelines in I.R.C. § 6320.2 This is our tenth annual audit to determine
 the IRS’ compliance with the law and with its own related internal guidelines when sending lien
 notices.

 Impact on the Taxpayer
 After filing Notices of Federal Tax Lien, the IRS must notify the affected taxpayers in writing
 within 5 business days of the lien filings. However, it has not always complied with this
 statutory requirement and did not always follow its own internal guidelines for notifying
 taxpayer representatives of the filing of lien notices. Therefore, some taxpayers’ rights to appeal
 the lien filings may have been jeopardized, and others may have had their rights violated when
 the IRS did not notify their representatives of lien filings, or provided information to individuals
 not authorized to represent the taxpayers.




 1
     I.R.C. § 6320 (Supp. V 1999).
 2
     I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                     Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                          Process Procedures




Synopsis
The IRS attempts to collect Federal taxes due from taxpayers by sending letters, making
telephone calls, and meeting face to face with taxpayers. When its initial contacts do not result
in the successful collection of an unpaid tax, the IRS has the authority to attach a claim (called a
Federal Tax Lien) to the taxpayer’s assets for the amount of the unpaid tax.3 It files a Notice of
Federal Tax Lien, which notifies interested parties that a lien exists. Since January 19, 1999,
I.R.C. § 6320 has required the IRS to notify taxpayers in writing within 5 business days of the
filing of a Notice of Federal Tax Lien.
The IRS may not have complied with the law in all cases.
Our review of a statistically valid sample of 150 Federal
                                                                  In 145 of 150 Federal Tax Lien
Tax Lien cases identified 145 cases (97 percent) for which          cases, the IRS maintained
the IRS did mail lien notices correctly and in a timely           records supporting the timely
manner, as required by I.R.C. § 6320 and internal                    issuance of lien notices.
procedures. For the other 5 lien notices (3 percent), we
could not determine if the law was complied with because
the IRS could not provide proof of mailing.
When an initial lien notice is returned because it could not be delivered and a different address is
available for the taxpayer, the IRS does not always meet its statutory requirement to send the lien
notice to the taxpayer’s last known address. For 29 (7 percent) of 400 cases, employees
did not research IRS computer systems for different addresses. For 104 (26 percent) of the
400 cases, the research was not performed within 5 business days. We also identified two cases
for which a new lien notice should have been sent to the taxpayer at the updated address because
the IRS systems listed the address prior to the lien filing. These two cases could involve legal
violations because the IRS did not meet its statutory requirement of sending lien notices to the
taxpayer’s last known address.
Also, the IRS did not always follow its own internal guidelines for notifying taxpayer
representatives of the filing of lien notices. For 12 (40 percent) of the 30 cases in which the
taxpayer had an authorized representative at the time of the lien actions, the IRS did not notify
the taxpayer’s representative of the lien filing. In addition, on two cases it sent notifications to
representatives not authorized to receive such information.




3
    I.R.C. § 6321 (1994).
                                                                                                       2
               Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                    Process Procedures




Recommendations
We recommended that the Director, Collection, 1) consult with the IRS Office of Chief Counsel
to identify any actions necessary to correct the potential legal violations we identified in this
audit; 2) provide better oversight to ensure IRS employees are properly controlling and
processing returned mail as undelivered, researching computer systems for correct addresses, and
resending lien notices; and 3) ensure that employees are notifying taxpayer representatives of
lien filings and safeguarding taxpayer information from inadvertent disclosures, and computer
enhancements are uploading power-of-attorney information as intended.

Response
IRS management agreed with the findings and recommendations. Management has consulted
with their Office of Chief Counsel and will issue new Collection Due Process notices to the
seven taxpayers and will review procedures for maintaining certified mailing lists. Further,
management revised the Internal Revenue Manual requiring the requesting employee or function
to conduct research for the correct addresses so appropriate actions can be taken on undelivered
mail. Management will determine if the Inbound Return Receipt Notice Delivery System can
include lien notice processing and if additional computer enhancements are required to ensure
proper uploading of power-of-attorney information. Management’s complete response to the
draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5959.




                                                                                               3
                     Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                          Process Procedures




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Lien Notices Were Mailed Timely, but Proof of Mailing
          Could Not Always Be Located .....................................................................Page 5
                    Recommendation 1:..........................................................Page 5

          Ineffective Working of Undelivered Lien Notices Resulted in
          Violations of Taxpayers’ Rights ...................................................................Page 6
                    Recommendation 2:..........................................................Page 7

          Internal Guidelines for Notifying Taxpayer Representatives
          Were Not Always Followed..........................................................................Page 7
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Synopsis of the Internal Revenue Service Collection
          and Lien Filing Processes .............................................................................Page 18
          Appendix VI – Internal Revenue Service Computer Systems Used
          in the Filing of Notices of Federal Tax Lien.................................................Page 20
          Appendix VII – Management’s Response to the Draft Report.....................Page 21
         Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                              Process Procedures




                         Abbreviations

ACS                Automated Collection System
ALS                Automated Lien System
ICS                Integrated Collection System
IDRS               Integrated Data Retrieval System
I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures




                                            Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. When initial
contacts do not result in the successful collection of an unpaid tax, the IRS has the authority to
attach a claim to the taxpayer’s assets for the amount of unpaid tax.1 This claim is referred to as
a Federal Tax Lien. The IRS files in appropriate local government offices a Notice of Federal
Tax Lien,2 which notifies interested parties that a lien exists.
Since January 19, 1999, Internal Revenue Code Section (I.R.C. §) 63203 has required the IRS to
notify taxpayers in writing within 5 business days of the
filing of a Notice of Federal Tax Lien. The IRS is
                                                              The IRS must notify taxpayers in
required to notify taxpayers the first time a Notice of
                                                               writing of the filing of a Federal
Federal Tax Lien is filed for each tax period. The lien        Tax Lien within 5 business days
notice, Notice of Federal Tax Lien Filing and Your                       of the filing.
Right to a Hearing Under IRC 63204 (Letter 3172), is
used for this purpose and advises taxpayers that they
have 30 calendar days, after that 5-day period, to request a hearing with the IRS Appeals office.
The lien notice indicates the date on which this 30-day period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address.
The lien processing operation has been centralized at the Cincinnati, Ohio, Campus,5 except for
the printing and mailing of taxpayer lien notices. The centralization took most of Fiscal
Year 2005 to be implemented. The Correspondence Production Services Sites in Detroit,
Michigan, and Ogden, Utah, are responsible for the printing and mailing of taxpayer lien notices.
They have a goal of reducing late filings of lien notices by using mail facilities located at their
sites. IRS personnel take the mail lists and lien notices to the Mail unit, where they are metered
and prepared daily for shipment to the main United States Postal Service. In the in-house mail

1
  Internal Revenue Code Section 6321 (1994).
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  I.R.C. § 6320 (Supp. V 1999).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
5
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 1
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



facility, a United States Postal Service employee is responsible for date stamping the certified
mail lists. After these mail lists are stamped, an IRS employee sends them to the Centralized
Lien Unit via overnight mail. A synopsis of the IRS collection and lien filing processes is
included in Appendix V. A description of IRS computer systems used in the filing of liens is
included in Appendix VI.
The IRS has been relatively consistent in the number of Federal Tax Liens it has filed to protect
the Federal Government’s interest. As shown in Figure 1, the number of Federal Tax Liens filed
decreased slightly in Fiscal Years 2004 and 2005, then increased in Fiscal Years 2006 and 2007.
                                                      Figure 1: Liens Filed


                                     700,000                                              680,521
                                                                                629,813
                                     600,000   544,316    534,392   522,887
                   Number of Liens




                                     500,000
                                     400,000
                                     300,000
                                     200,000
                                     100,000
                                          0
                                               2003       2004      2005        2006      2007
                                                                 Fiscal Years

             Source: IRS Data Book 2006 and IRS personnel. 6

The Treasury Inspector General for Tax Administration is required to determine annually
whether, when filing Notices of Federal Tax Lien, the IRS complied with the law regarding the
notifications of affected taxpayers and their representatives.7 We performed our audit work in
the Small Business/Self-Employed Division Office of Collection Policy in Washington, D.C.,
and the Centralized Lien Unit in Covington, Kentucky, during the period August 2007 through
January 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed



6
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
7
  I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                            Page 2
                                             Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                                                  Process Procedures



information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.

Results of prior Treasury Inspector General for Tax Administration reviews
This is our tenth annual audit to determine if the IRS complied with the legal requirements of
I.R.C. § 6320 and its own related internal guidelines for filing Notices of Federal Tax Lien. In
prior years, we reported the IRS had not yet achieved full compliance with the law and its own
internal guidelines. This year our statistically valid sample did not identify any Federal Tax Lien
cases that were not mailed in a timely manner. However, for 5 of the lien notices (3 percent), we
could not determine if the IRS complied with the law because the IRS could not provide proof of
mailing. Figure 2 shows the percentages of potential violations of taxpayer rights we identified
during our prior annual audits.
                                               Figure 2: Potential Violations of Taxpayer Rights

                                             8%
                  Percentage of Violations




                                             6%
                                                               5%        5%         5%
                                                    4%
                                             4%
                                                                                               3%

                                             2%


                                             0%
                                                    2003      2004       2005       2006      2007
                                                                      Fiscal Year

               Source: Treasury Inspector General for Tax Administration mandatory lien reports issued
               during Fiscal Years 2003-2007.

The IRS National Headquarters conducted a notice compliance review
In February 2007, the IRS performed a review of Centralized Lien Unit activities to ensure IRS
procedures are being followed and taxpayers’ rights are being protected. This was the second
review performed since the lien operation was centralized at the Cincinnati Campus and was
conducted by Headquarters Campus Compliance Service and Collection Policy staff.
For the IRS compliance review of the Centralized Lien Unit operations, Automated Lien System
(ALS)8 programmers randomly selected 100 serial lien identification numbers from liens filed

8
    See Appendix VI for descriptions of the IRS computer systems used in the filing of Notices of Federal Tax Lien.
                                                                                                             Page 3
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                     Process Procedures



between July 2006 and January 2007. They selected a judgmental sample of 65 numbers and
obtained the corresponding certified mail lists for review. The sample was extracted so cases
were reviewed from all areas. The IRS review found that all lien notices were issued in a timely
manner.
IRS personnel selected another random sample of 50 lien notices from January 2007 to evaluate
the processing of undelivered lien notices. The Centralized Lien Unit appropriately researched
all 50 lien notices and input the undelivered mail status to the ALS database for all 50 notices.




                                                                                           Page 4
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                     Process Procedures




                                 Results of Review

Lien Notices Were Mailed Timely, but Proof of Mailing Could Not
Always Be Located
A review of a statistically valid sample of 150 Federal Tax Lien cases identified 145 (97 percent)
for which the IRS did mail correctly and in a timely manner the taxpayers’ notices of a lien filing
and appeal rights, as required by I.R.C. § 6320 and internal procedures. For the other 5 lien
notices (3 percent), we could not determine if the law was complied with because the IRS could
not provide proof of mailing.
I.R.C. § 6320 requires the IRS to notify taxpayers in writing within 5 business days of the filing
of a Notice of Federal Tax Lien. Because of difficulties in obtaining and controlling the filing
dates from numerous courthouses across the country, IRS procedures require that the notices be
mailed within 5 business days after they have been printed for mailing to the courthouses. IRS
procedures also require retention of the date-stamped copy of the certified mail lists for 10 years
after the end of the processing year.
We did not identify any untimely notifications. This result is an improvement in the timeliness
of mailing lien notices since completion of our prior audit, which had shown 3 percent of the lien
notices were sent late (projected to a potential 15,847 late notices). However, the five lien
notices without proof of mailing was a slight increase over the four lien notices identified in our
prior audit. We project that 22,642 taxpayers might not have been provided with lien notices,
causing potential legal violations of taxpayers’ rights.
Management could not explain why the mail lists were not available. Without the dated proof of
mailing, the IRS may be unable to protect itself against a taxpayer’s claim that he or she did not
receive timely notice of the lien and was unaware that a Federal Tax Lien existed against his or
her assets.

Recommendation
Recommendation 1: The Director, Collection, should consult with the IRS Office of Chief
Counsel to identify any actions necessary to correct the potential legal violations we identified in
this audit and ensure that IRS employees are properly maintaining the Certified Mail Lists.
       Management’s Response: IRS management agreed with the recommendation.
       Management has consulted with the IRS Office of Chief Counsel and was advised to
       1) send new Collection Due Process notices to the seven taxpayers identified in the
       report, 2) review procedures for maintaining certified mail lists including scanning the

                                                                                             Page 5
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                     Process Procedures



       certified mail lists to a searchable file, and 3) ensure that procedures for maintaining
       certified mail lists include safeguards to verify that all date-stamped certified lists have
       been received from the print site and that all lists have been scanned.

Ineffective Working of Undelivered Lien Notices Resulted in Violations
of Taxpayers’ Rights
IRS procedures require that employees send another lien notice to a new address if 1) the
originally mailed notice is returned as undelivered mail, 2) research confirms the original lien
notice was not sent to the last known address, and 3) a different address is available for the
taxpayer. Employees are responsible for certain actions when notices are returned as
undeliverable. They should research the IRS computer system within 5 business days to ensure
the address on the original lien notice is correct. If the employee cannot find a new address on
the computer system, the undelivered lien notice will be destroyed and the case will be closed.
If the address on the notice is not the last known address and a different address was in effect
prior to issuance of the original lien notice, employees should issue a new notice to the better
address. A new notice (Letter 3172) is created by using an option in the ALS.
For the period July 23 through August 3, 2007, we selected a judgmental sample of
400 undelivered lien notices from the Cincinnati Campus. The sample included only returned
mail identified as undelivered. It did not include returned mail identified as refused or
unclaimed. For these 400 cases, we reviewed computer system audit trails to determine whether
IRS employees performed any research on IRS computer systems to determine whether the
addresses were correct on the originally mailed notices. Employees were not always researching
IRS computer systems to determine whether taxpayer addresses on undelivered lien notices were
correct. The 400 cases were handled by requesting employees as follows:
   •   For 29 cases (7 percent), employees did not research IRS computer systems for a
       different address.
   •   For 104 cases (26 percent), employees performed the required research but not within
       5 business days of receipt of the returned notice (average was 8.6 business days, ranging
       from 6 days to 31 days).
   •   For 267 cases (67 percent), employees performed the required research within 5 days of
       receipt of the returned notice.
Our research also identified 39 cases for which the address on IRS computer systems and the
original lien notice did not agree. The ALS was properly documented for 35 cases to show that
the original lien notice was returned as undelivered. For 20 of the 39 cases, the address on the
IRS computer system was updated after the original lien notice was sent to the taxpayer.
Therefore, no additional action was required. For the remaining 19 cases (49 percent), the
address was updated prior to the mailing of the original lien notice, and a new lien notice should
                                                                                               Page 6
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



have been sent to the taxpayer at the updated address. In 17 of the 19 cases, the IRS sent a new
lien notice to the taxpayer at the updated address. The two cases for which a new lien notice was
not sent could involve potential legal violations because the IRS did not meet its statutory
requirement of sending each lien notice to the taxpayer’s last known address.
Management oversight was not adequate to ensure that returned mail is properly controlled and
worked in a timely manner. In addition, the routing of the returned mail to the lien unit could
have caused the untimely research of the undelivered mail (i.e., not within the required
5 business days).

Recommendation
Recommendation 2: The Director, Collection, should provide better oversight to ensure that
employees are properly controlling and processing returned mail as undelivered, researching
computer systems for correct addresses, and resending lien notices.
        Management’s Response: IRS management agreed with the recommendation.
        Management plans to 1) complete research on undelivered mail identified as not having
        research performed and 2) determine the feasibility of reviewing undelivered mail
        returned to the requesting employee or function and continue to pursue Inbound Return
        Receipt Notice Delivery System programming. In addition, the Internal Revenue Manual
        was revised to require undelivered mail be returned to the employee or function
        requesting the Notice of Federal Tax Lien for proper control and processing. The
        requesting employee or function is required to research computer systems for a correct
        address and send the notice to a new address, if appropriate. An ALS programming
        change currently returns undelivered mail to the requesting employee or function.

Internal Guidelines for Notifying Taxpayer Representatives Were Not
Always Followed
Taxpayer representative information is contained on the Centralized Authorization File9 that is
located on the Integrated Data Retrieval System (IDRS), a system that enables employees to
access taxpayer accounts. Using the IDRS, employees can research the Centralized
Authorization File to identify the types of authorization given to taxpayer representatives.
Employees responsible for making the lien filing determination are to ensure that all appropriate
persons, such as those with a taxpayer’s power of attorney, receive a notice of the lien filing and
the taxpayer’s appeal rights. Specifically, IRS procedures require that a copy of the notice be



9
 The Centralized Authorization File contains information regarding the types of authorization that taxpayers have
given representatives for various modules within their accounts.
                                                                                                           Page 7
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                     Process Procedures



sent to the taxpayer’s representative no later than 5 business days after the notice is sent to the
taxpayer, when a Notice of Federal Tax Lien is filed.
Revenue officers are also required to document in the case history when they request a lien filing
and a lien notice for a taxpayer’s representative. Revenue officers’ managers are required to
examine case files for this documentation during their regular review process.
In August 2006, the IRS implemented the Automated Collection System (ACS) and Integrated
Collection System (ICS) interfaces with the ALS. The ACS uploads the taxpayer representative
information to ALS, which generates the lien notice. Likewise, the ICS sends taxpayer
representative information to the ALS when liens are requested. For these enhancements to
work, revenue officers need to keep current data on the ICS and IDRS.
Our review of the statistically valid sample of 150 liens determined 30 involved taxpayers with
representatives authorized on the Centralized Authorization File to receive notifications at the
time the liens were filed. In 12 (40 percent) of the 30 cases, the ALS records did not indicate
that the IRS had sent copies of the lien notices to the representatives. In seven cases, revenue
officers did not document that they had requested lien notices be sent to the taxpayer
representatives. In the other five cases, the ACS function did not electronically forward the
taxpayer representatives’ information to the ALS. In addition, on two cases, it sent notifications
to representatives not authorized to receive such information. We project that 54,342 taxpayer
representatives may not have been provided lien notices, resulting in potential legal violations of
taxpayers’ rights. We also project that 9,057 taxpayer representatives may have been provided
unauthorized lien notices, resulting in potential legal violations of taxpayers’ rights.
Although improvements have been made, the systemic changes have had little impact on
improving performance. In last year’s report, we found 25 cases had taxpayer representatives
listed on the Centralized Authorization File. In 15 (60 percent) of the 25 cases, the IRS had no
record of sending copies of lien notices to the representatives.
IRS management indicated that lien notices may not have been issued to taxpayer representatives
because systemic problems may exist that were not uncovered. Another explanation is that the
power-of-attorney information was not input. To obtain more information, the IRS Headquarters
Operations function plans to evaluate the effectiveness of the ICS and ACS interface during its
annual review of the Centralized Lien Unit operation, which is scheduled to be completed in
March 2008.
We also identified two cases in which the IRS sent lien notices to representatives who were not
authorized to receive such information. The two liens may have been issued prior to a
programming change that matched at least one tax period on the lien to one tax period for the
power of attorney. Although the liens were manually input to the ALS, the requesting employee
may not have verified that the power-of-attorney information was current.



                                                                                               Page 8
               Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                    Process Procedures



For a lien not requested through the ICS, revenue officers should send to the Centralized Lien
Unit a request to mail a lien notice to the taxpayer representative. An ICS procedure, created on
February 13, 2006, enables revenue officers to request a copy of the Letter 3172 for the taxpayer
representative and to send to the Centralized Lien Unit a “secure” email with the taxpayer
representative information. The procedures had not changed since the last review.
Inadvertent, improper disclosures include an invalid or incomplete written or oral authorization.
While still unauthorized, those disclosures cover cases in which no willfulness of intent is
involved. However, public confidence in the ability of the IRS to protect the confidentiality of
tax information influences taxpayer compliance. As indicated in IRS guidance, a perception that
the IRS is careless in preserving privacy rights could have serious compliance ramifications.
Management oversight did not ensure that revenue officers documented their work or kept
Centralized Authorization File data current or that system improvements uploaded these data as
planned.

Recommendation
Recommendation 3: The Director, Collection, should provide better oversight to ensure that
1) employees are notifying taxpayer representatives of lien filings and safeguarding taxpayer
information from inadvertent disclosures and 2) computer enhancements are uploading
power-of-attorney information as intended.
       Management’s Response: IRS management agreed with the recommendation.
       Management plans to 1) establish power of attorney Collection Due Process notice
       issuance verification procedures for employees requesting Notices of Federal Tax Lien,
       2) determine if IRS computer systems have programming that matches Notice of Federal
       Tax Lien and power-of-attorney tax period authorizations prior to sending notifications to
       the ALS, 3) request programming enhancements to eliminate potential disclosure issues,
       if necessary, and 4) determine if additional computer enhancements are required to
       ensure proper uploading of power-of-attorney information.




                                                                                           Page 9
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether IRS Notice of Federal Tax Lien1
filings and notices of taxpayers’ appeal rights complied with legal guidelines set forth in
I.R.C. § 6320.2 To accomplish the objective, we:
I.      Determined whether taxpayer lien notices related to 150 Notices of Federal Tax Lien
        filed by the IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and
        related internal guidelines.
        A. Selected a statistically valid sample of 150 Federal Tax Lien cases from an ALS3
           extract of the 679,273 liens filed by the IRS nationwide between July 1, 2006, and
           June 30, 2007. We used a statistical sample because we wanted to project the number
           of cases with errors. We used attribute sampling to calculate the minimum sample
           size (n),4 which we rounded to 150:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 5 percent5
              A = Precision Rate:              ±3 percent
        B. Validated the ALS extract by comparing the sampled records to online data from the
           IDRS and by reviewing management system evaluations that covered reliability,
           completeness, and accuracy.
        C. Determined whether the sampled liens adhered to legal guidelines regarding timely
           notifications of lien filings to the taxpayer, the taxpayer’s spouse, and/or business
           partners by reviewing data from the ALS and certified mail lists.
        D. Assessed the controls and procedures established for transferring, storing, and
           safeguarding certified mail lists at the Centralized Lien Unit to determine whether
           enhancements had been implemented since the completion of our prior audit.



1
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
2
  I.R.C. § 6320 (Supp. V 1999).
3
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
4                     2            2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
5
  The actual error rate in our prior report was 4.67 percent.
                                                                                                         Page 10
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



        E. Determined whether the taxpayer representatives were provided a copy of the lien
           notices by reviewing data from the ALS, ICS, ACS, and IDRS.
             1. Reviewed IDRS screens and Master File6 extracts for Centralized Authorization
                File7 indicators (Transaction Code 960) for the sampled cases.
             2. Reviewed the ALS history screens for all sampled accounts to determine whether
                notices were mailed to taxpayer representatives.
             3. Reviewed ICS case histories for documentation that taxpayer representatives’
                name/address information was sent to the Centralized Lien Unit or that the
                revenue officers had mailed the notices directly to the taxpayer representatives for
                the sampled cases that did not have a taxpayer representative notification on the
                ALS histories.
             4. Reviewed the ACS case history for documentation that taxpayer representatives’
                name/address information was electronically transmitted to the Centralized Lien
                Unit.
        F. Provided all exception cases to Office of Collection Policy for agreement to potential
           violations and corrective actions if appropriate.
II.     Evaluated the procedures for processing lien notices8 that are returned as undelivered.
        A. Selected a judgmental sample of 400 undelivered lien notices from a total of
           1,417 received during the 2-week period of July 23 through August 3, 2007, and
           recorded the taxpayer’s name, address, Social Security Number, and serial lien
           identification number. The judgmental sample included only returned mail identified
           as undelivered. It did not include returned mail identified as refused or unclaimed. A
           judgmental sample was used because the IRS did not control the receipt of
           undelivered mail and the test was conducted to show control weaknesses for which
           management needed to take corrective action.
        B. Researched the Master File using the IDRS command code INOLES and determined
           whether the address on the Master File matched the address on the undelivered lien
           notice for each sampled case.
        C. Reviewed taxpayer audit trails and determined whether IRS employees performed the
           required Master File research using the IDRS for each sampled case.

6
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
7
  The Centralized Authorization File contains information regarding the types of authorization that taxpayers have
given representatives for various modules within their accounts.
8
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                           Page 11
               Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                    Process Procedures



       D. Researched the ALS database and determined whether the lien notice was mailed to
          the updated address and was identified as undelivered on the ALS, and whether a new
          lien notice was sent to the taxpayer’s updated address for each sampled case.
III.   Determined whether internal guidelines had been implemented or modified since
       completion of our last audit by discussing procedures and controls with appropriate IRS
       personnel in the Office of Collection Policy.
IV.    Determined the status of planned ICS and ACS system enhancements and any problems
       encountered.




                                                                                        Page 12
               Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                    Process Procedures



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl Aley, Director
Edward Gorman, Audit Manager
Darryl Roth, Senior Auditor
Lawrence R. Smith, Senior Auditor
Stephen Elix, Student Trainee




                                                                                      Page 13
              Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                   Process Procedures



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate NTA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                            Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 22,642 taxpayers may not have been provided
    Notices of Federal Tax Lien and Your Right to a Hearing Under IRC 6320 (Letter 3172),1
    resulting in potential legal violations of taxpayers’ rights (see page 5).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 150 Federal Tax Lien cases, we identified 5 cases (3 percent)
for which IRS employees could not provide proof of mailing of the Letters 3172, resulting in
potential legal violations of taxpayers’ rights (see page 5). The sample was selected based on a
confidence level of 90 percent, a precision rate of ±3 percent, and an expected rate of occurrence
of 5 percent. We projected the findings to the total population provided by the IRS of 679,273
Notices of Federal Tax Lien generated by the ALS between July 1, 2006, and June 30, 2007. We
estimated that similar taxpayer rights could have been affected in 22,642 lien notices
(5/150 x 679,273). We are 90 percent confident that the range of notices with similar problems
is between 6,213 and 39,072.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; two taxpayers were not provided Letters 3172,
    resulting in potential legal violations of taxpayers’ rights (see page 6).

Methodology Used to Measure the Reported Benefit:
In a judgmental sample of 400 undelivered lien notices, we determined that the IRS did not send
notices to the updated addresses of 2 taxpayers.
Taxpayer rights could be affected because a taxpayer not receiving a notice or receiving a late
notice might be unaware of the right to appeal or might receive less than the 30-calendar day


1
 Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                      Page 15
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



period allowed by the law to request a hearing. In addition, taxpayer rights could be affected
when the taxpayer appeals the filing of the lien and the IRS denies the request for the appeal.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 54,342 taxpayer representatives may not have
    been provided Notices of Federal Tax Lien and Your Right to a Hearing Under IRC 6320
    (Letter 3172),2 resulting in potential legal violations of taxpayers’ rights (see page 7).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 150 Federal Tax Lien cases, we identified 30 cases
(20 percent) that involved taxpayers with representatives authorized to receive notifications at
the time the ALS actions filed the liens. In 12 (40 percent) of the 30 cases (see page 7), the ALS
record did not indicate that the IRS had sent copies of the lien notices to the representatives. The
sample was selected based on a confidence level of 90 percent, a precision rate of ±3 percent,
and an expected rate of occurrence of 5 percent. We projected the findings to the total
population provided by the IRS of 679,273 Notices of Federal Tax Lien generated by the ALS
between July 1, 2006, and June 30, 2007. We estimated that similar taxpayer rights could have
been affected in 54,342 lien notices (12/150 x 679,273). We are 90 percent confident that the
range of notices with similar omissions is between 29,512 and 79,172.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 9,057 taxpayer representatives may have been
    provided unauthorized Notices of Federal Tax Lien and Your Right to a Hearing Under IRC
    6320 (Letter 3172),3 resulting in potential violations of taxpayers’ privacy (see page 7).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 150 Federal Tax Lien cases, we identified 30 cases
(20 percent) that involved taxpayers with representatives authorized to receive notifications at
the time the ALS actions filed the liens. In 2 (7 percent) of the 30 cases (see page 7), the ALS
records indicate that the IRS had sent copies of the lien notices to unauthorized representatives.

2
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.




                                                                                                       Page 16
               Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                    Process Procedures



The sample was selected based on a confidence level of 90 percent, a precision rate of
±3 percent, and an expected rate of occurrence of 5 percent. We projected the findings to the
total population provided by the IRS of 679,273 Notices of Federal Tax Lien generated by the
ALS between July 1, 2006, and June 30, 2007. We estimated that similar taxpayer privacy rights
could have been affected in 9,057 lien notices (2/150 x 679,273). We are 90 percent confident
that the range of notices with similar errors is between 0 and 19,555.




                                                                                      Page 17
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                                Appendix V

             Synopsis of the Internal Revenue Service
               Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. The IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
    •   IRS employees who make personal (face-to-face) contact with taxpayers are called
        revenue officers and work in various locations. The ICS1 is used in most of these
        locations to track collection actions taken on taxpayer accounts.
    •   IRS employees who make only telephone contact with taxpayers work in call sites in
        Customer Service offices. The ACS is used in the call sites to track collection actions
        taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a Notice of Federal Tax Lien2 to
appropriate local government offices. Liens protect the Federal Government’s interest by
attaching a claim to the taxpayer’s assets for the amount of unpaid tax. The right to file a Notice
of Federal Tax Lien is created by I.R.C. § 6321 (1994) when:
    •   The IRS has made an assessment and given the taxpayer notice of the assessment, stating
        the amount of the tax liability and demanding payment.
    •   The taxpayer has neglected or refused to pay the amount within 10 calendar days after the
        notice and demand for payment.
When designated employees request the filing of a Notice of Federal Tax Lien using either the
ICS or the ACS, the ALS processes the lien filing requests from both Systems. In an expedited
situation, employees can manually prepare the Notice of Federal Tax Lien. Even for manually
prepared liens, the ALS controls and tracks the liens and initiates subsequent lien notices3 to
notify responsible parties of the lien filings and of their appeal rights. The ALS maintains an


1
  See Appendix VI for detailed descriptions of IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                          Page 18
                Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                     Process Procedures



electronic database of all open Notices of Federal Tax Lien and updates the IRS’ primary
computer records to indicate that a Notice of Federal Tax Lien has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list
(United States Postal Service Form 3877), which identifies each notice that is to be mailed. The
notices and a copy of the certified mail list are delivered to the United States Postal Service. A
United States Postal Service employee ensures that all notices are accounted for, date stamps the
list, and returns a copy to the IRS. The stamped certified mail list is the only documentation the
IRS has that certifies the date on which the notices were mailed. IRS guidelines require that the
stamped certified mail list be retained for 10 years after the end of the processing year.




                                                                                           Page 19
                  Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                                       Process Procedures



                                                                                              Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Lien

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien1 and related lien
notices and updates the IRS’ primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both ACS and the ICS cases are controlled on the ALS by Technical Support or
Case Processing functions at the Cincinnati, Ohio, Campus.2 Employees at the Cincinnati
Campus process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries
using the ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’
primary computer files to indicate Notices of Federal Tax Lien have been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in campuses and other IRS locations.
It enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.



1
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
2
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 20
   Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                        Process Procedures



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 21
Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 23
Fiscal Year 2008 Statutory Review of Compliance With Lien Due
                     Process Procedures




                                                        Page 24
